WAIVER |.

SUPREME COURT OF THE UNITED STATES

  

[char State of Kansas

(Petitioner) (Respondent)

 

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Tam filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

will be filed by a Barah¢mber. (Filing Instructions: Mail the original signed form to: Supreme Court,

Tam not presently a member of the Bar of this Court. Should a response be requested, the response
Attn: Clerk’s Office, rn

reet, NE, Washington, D.C. 20548).

Signature: [ Ie Wwe,

Date: ariai24 :

(Type or print) Name Brant M. Laue

 

 

 

 

 

     

| Zip jeso12

| Email |prant.laue@ag. ks, gov

 

 

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

   

Charles D. Bowser
cc:

 
